Audit Report




OIG-06-011
Agreed-Upon Procedures for the Department of the Treasury’s
Fiscal Year 2005 Intragovernmental Activity and Balances
December 2, 2005




Office of
Inspector General
Department of the Treasury
Contents


Transmittal Memorandum


Independent Accountants’ Report on Applying Agreed-Upon
Procedures for Intragovernmental Activity and Balances
                                     DEPARTMENT OF THE TREASURY
                                           WASHINGTON, D.C. 20220




     OFFICE OF                               December 2, 2 0 0 5
INSPECTOR GENERAL




            MEMORANDUM FOR FAYE McCREARY
                           DIRECTOR, FINANCIAL REPORTS DIVISION
                           FINANCIAL MANAGEMENT SERVICE

                                  GARY T. ENGEL
                                  DIRECTOR, FINANCIAL MANAGEMENT AND ASSURANCE
                                  GOVERNMENT ACCOUNTABILITY OFFICE

                                  SANDRA L. PACK
                                  ASSISTANT SECRETARY FOR MANAGEMENT AND CHIEF
                                  FINANCIAL OFFICER
                                  DEPARTMENT OF THE TREASURY

            FROM:                 William H. Pugh,
                                                                          u
                                  Deputy Assistant Inspector Ge n e r a l
                                   for Financial Management and Information
                                   Technology Audits

            SUBJECT:              Agreed-Upon Procedures for the Department of the
                                  Treasury's Fiscal Year 2 0 0 5 lntragovernmental Activity and
                                  Balances

            I am pleased t o transmit the attached report on agreed-upon procedures for the
            Department of the Treasury's (Department) fiscal year (FY) 2 0 0 5 intragovernmental
            activity and balances. W e contracted w i t h t h e independent certified public
            accounting firm KPMG LLP t o perform the agreed-upon procedures for the
            Department's FY 2 0 0 5 intragovernmental activity and balances. The contract
            required that t h e agreed-upon procedures be performed in accordance w i t h
            generally accepted government auditing standards. KPMG LLP issued the attached
            Independent Accountants' Report o n Applying Agreed-Upon Procedures for
            lntragovernmental Activity and Balances.

            In connection w i t h t h e contract, w e reviewed KPMG LLP's report and related
            documentation and inquired o f its representatives. Our review, as differentiated
            from an agreed-upon procedures engagement performed in accordance w i t h
            generally accepted government auditing standards, was not intended t o enable us
            t o report, and w e do not report, findings based o n agreed-upon procedures
            performed o n the Department's intragovernmental activity and balances. KPMG LLP
            is responsible for t h e attached report dated December 1, 2 0 0 5 and the conclusions
            expressed in the report. However, our review disclosed no instances where
            KPMG LLP did not comply, in all material respects, w i t h generally accepted
            government auditing standards.
Page 2

Should you have any questions, please contact me at (202) 927-5400, or a
member of your staff may contact Mike Fitzgerald, Director, Financial Audits at
(202) 927-5789.

Attachment
Independent Accountants’ Report on Applying Agreed-Upon
  Procedures for Intragovernmental Activity and Balances
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




  Independent Accountants’ Report on Applying Agreed-Upon Procedures for Intragovernmental
                                    Activity and Balances


Office of Inspector General
U.S. Department of the Treasury:

We have performed the procedures enumerated in Exhibit A (attached), which were based on the
procedures stated in the U.S. Department of Treasury’s (Department) Treasury Financial Manual, Volume
1, Part 2, Chapter 4700, Section 4705.75 “IG Agreed-Upon Procedures for Federal Intragovernmental
Activity and Balances”, solely to assist the Department’s Office of Inspector General (OIG) in evaluating
the Department’s assertion that it properly reported intragovernmental activity and balances in the
Department’s consolidated financial statements as of and for the year ended September 30, 2005, and in its
2005 Financial Report of the United States Government Closing Package (Closing Package). The
Department’s management is responsible for the proper accounting, presentation, and reporting of its
intragovernmental activity and balances, consolidated financial statements, and Closing Package.

This agreed-upon procedures engagement was conducted in accordance with attestation standards
established by the American Institute of Certified Public Accountants and the standards applicable to
attestation engagements contained in Government Auditing Standards, issued by the Comptroller General
of the United States. These procedures were based on procedures agreed to by, and the sufficiency of these
procedures is solely the responsibility of, the Office of Management and Budget (OMB), the Treasury
Financial Management Service (FMS), and the U.S. Government Accountability Office (GAO).
Consequently, we make no representations regarding the sufficiency of the procedures described in Exhibit
A either for the purpose for which this report has been requested or for any other purpose. The procedures
we performed and our associated findings are presented in Exhibit A.

We were not engaged to, and did not, conduct an audit of the information addressed herein, the objective of
which would be the expression of an opinion on such information. Accordingly, we do not express such an
opinion. Had we performed additional procedures, other matters might have come to our attention that
would have been reported to you.

This report is intended solely for the information and use of the Department, the Department’s OIG, OMB,
FMS, and GAO, and is not intended to be and should not be used by anyone other than these specified
parties.




December 1, 2005



                                KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                a member of KPMG International, a Swiss association.
                                                                                            Exhibit A
                              U.S. DEPARTMENT OF THE TREASURY
                                      Agreed-Upon Procedures for
                                Intragovernmental Activity and Balances



Procedures and Findings

Procedure 1

Obtain all Intragovernmental Closing Package Line Item reports from Module 4 of the Governmentwide
Financial Report System (GFRS) for intragovernmental activity/balances supporting the Closing Package:

•     Reclassified Balance Sheet’s Federal Assets and Liabilities,
•     Reclassified Statement of Net Cost’s Federal Gross Cost and Federal Earned Revenue, and
•     Reclassified Statement of Changes in Net Position’s Nonexchange Revenue and Budgetary and Other
      Financing Sources.

Finding 1

We obtained the following Intragovernmental Closing Package Line Item Reports from Module 4 of the
GFRS (hereinafter referred to as the Schedules) for intragovernmental activity/balances supporting the
Closing Package:

A. Reclassified Balance Sheet’s Federal Assets and Liabilities

1.    Accounts Receivable
2.    Interest Receivable
3.    Other Assets (without reciprocals)
4.    Loans Receivable
5.    Advances from Others and Prepayments
6.    Accounts Payable
7.    Federal Debt
8.    Interest Payable
9.    Advances from Others and Deferred Credits
10.   Other Liabilities (without reciprocals)
11.   Benefit Program Contributions Payable

B. Reclassified Statement of Net Cost’s Federal Gross Cost and Federal Earned Revenue

1.    Imputed Costs
2.    Benefit Program Costs
3.    Buy/Sell Costs
4.    Federal Securities Interest Expense
5.    Other Costs (without reciprocals)
6.    Buy/Sell Revenue
7.    Other Revenue (without reciprocals)
8.    Borrowing Gains
9.    Borrowing and Other Interest Expense
10.   Borrowing and Other Interest Revenue (Exchange)




                                                    2                                     (Continued)
                                                                                              Exhibit A
                             U.S. DEPARTMENT OF THE TREASURY
                                     Agreed-Upon Procedures for
                               Intragovernmental Activity and Balances



C. Reclassified Statement of Changes in Net Position’s Federal Nonexchange Revenue and Budgetary and
   Other Financing Sources

1.   Other Financing Sources
2.   Borrowing and Other Interest Revenue
3.   Unexpended Appropriations Transferred In
4.   Unexpended Appropriations Transferred Out
5.   Appropriation Transfers-Out
6.   Transfers-in Without Reimbursement
7.   Transfers-out Without Reimbursement
8.   Imputed Financing Source

Procedure 2

Compare the Schedules’ intragovernmental activity/balances by Federal line item totals and/or trading
partner activity/balances to the agency’s general ledger and the Required Supplementary Information (RSI)
data from the audited consolidated financial statements. Identify any differences.

Finding 2

A. We compared the fiscal year 2005 intragovernmental activity/balances for each trading partner from
   the Schedules to the Department’s general ledger. We noted no differences.

B. We compared the total fiscal year 2005 intragovernmental balances for each Federal line item total by
   trading partner from the Schedules to the RSI data in the Department’s audited consolidated financial
   statements and we identified the following differences:




                                                   3                                         (Continued)
                                                                                                      Exhibit A
                             U.S. DEPARTMENT OF THE TREASURY
                                     Agreed-Upon Procedures for
                               Intragovernmental Activity and Balances



                                   Table 1 – Reclassification Differences

                                           Balance Per      Balance Per
  Closing Package        RSI Data            Schedule        RSI Data        Difference
  Line Description      Description         (000,000s)       (000,000s)      (000,000s)       Explanation
Loans Receivable                          $            -    $ 236,214       $ (236,214)               1
Interest Receivable                                   -          1,463           (1,463)              1
                      Loans and
                      Interest
                      Receivable               228,491                -           228,491             1
                      Advances to the
                      Black Lung
                      Trust Fund                 9,186                -           9,186               1
                                                           Net Difference   $         -
Federal Debt                              $ 3,325,707       $          -    $ 3,325,707              1
Interest Payable                               43,362                  -         43,362              1
                      Federal Debt
                      and Interest
                      Payable                         -       3,354,905         (3,354,905)           1
                      Other Debt and
                      Interest Payable                -          14,164           (14,164)            1
                                                           Net Difference   $           -
Accounts Payable                          $        211      $         -     $        211              1
Advances from
Others and Deferred
Credits                                             42                -                42             1
Benefit Program
Contributions
Payable                                            171                -               171             1
                      Other Liabilities              -              422              (422)            1
                                                           Net Difference   $           2




                                                      4                                             (Continued)
                                                                                                 Exhibit A
                             U.S. DEPARTMENT OF THE TREASURY
                                     Agreed-Upon Procedures for
                               Intragovernmental Activity and Balances



                                       Table 2 – Other Differences



                          Balance per Schedule    Balance per RSI       Difference
 Schedule Description          (000,000s)           (000,000s)          (000,000s)      Explanation
Imputed Costs            $                  722 $                 -   $          722         2
Benefit Program Costs                     1,659                   -            1,659         2
Buy/Sell Costs                            2,069                   -            2,069         2
Federal Securities
Interest Expense                       173,790                    -         173,790         2
Other Costs (Without
Reciprocals)                               (614)                  -            (614)        2
Other Revenue (Without
Reciprocals)                                (41)                  -              (41)       2
Borrowing Gains                              15                   -               15        2
Borrowing and Other
Interest Expense                          4,650                   -           4,650         2
Borrowing and Other
Interest Revenue
(Exchange)                              13,910                    -          13,910         2
 Statement of Net Cost
          Net Difference $             196,160 $                  -   $     196,160

Other Financing Sources $           2,037,833    $                -   $    2,037,833        2
Unexpended
Appropriations
Transferred In                            415                     -             415         2
Unexpended
Appropriations
Transferred Out                          1,009                    -           1,009         2
Imputed Financing
Source                                     722                    -             722         2
 Statement of Changes
    in Net Position Net
             Difference $           2,039,979    $                -   $    2,039,979

The procedures performed took into consideration the following:

•   Rounding differences of $5 million or less are not reflected in the table above.
•   The RSI data does not present intragovernmental costs by trading partner, but the Schedules do report
    this information.
•   The Schedules do not present Fund Balance with Treasury, but that information is included in RSI
    data.



                                                     5                                          (Continued)
                                                                                                                  Exhibit A
                                      U.S. DEPARTMENT OF THE TREASURY
                                              Agreed-Upon Procedures for
                                        Intragovernmental Activity and Balances



•     The U.S. Standard General Ledger (SGL) crosswalk relating to the RSI data presents SGL 5765,
      Transfers, as “transfers without reimbursement,” whereas the crosswalk relating to the Schedules
      presents those transfers as “appropriations transfers.”

We communicated the differences noted above to the Department and requested explanations for the
differences. We received the following explanations from the Department:

1. The differences related to reclassifications made in accordance with the Treasury Financial Manual
   Chapter 4700 for the Closing Package financial statements.

2. The differences related to the Intragovernmental Closing Package Line Item Reports included line
   items not required to be presented in the RSI.

No additional procedures were performed with respect to management’s explanations as to the reasons for
the differences.

Procedure 3

Compare trading partner activity/balances from the intragovernmental RSI schedules in the agency’s
audited consolidated financial statements to the agency’s Intragovernmental Closing Package vs. 4th
Quarter Submission Comparative Data Report for Fiscal Year 2005 (Revised) and the Closing Package
Material Differences/Status of Disposition Certification Report (Section II of the CFO Representations).
For items where agency reporting differences exist, compare the explanations to supporting documentation
and identify any differences.

Finding 3

A. We compared the fiscal year 2005 trading partner activity/balances from the intragovernmental RSI
   schedules in the Department’s audited consolidated financial statements to the column entitled
   “Agency Reported Amount – Closing Package” of the Department’s “Intragovernmental Closing
   Package vs. 4th Quarter Submission Comparative Data Report for Fiscal Year 2005 (Revised)”. We
   identified the following difference:

                                                          Table 3

                                                                                   Balance Per
                                                                                     Closing
                                                                                  Package vs. 4th
                                                                                       Qtr.
                                                                     Balance Per Comparative
                 Closing Package Line Item                          RSI Schedules     Report         Difference
    Category            Description              Trading Partner     (000,000s)     (000,000s)       (000,000s)     Reference
                                                                                                                            1
      29       Uncategorized - SGLs that       General Fund         $   8,251,632   $ 10,289,424    $ (2,037,792)
               are not assigned to any other
               category

The procedures performed take into consideration the matters noted in Finding 2, and that the “Agency
Reported Amount – Closing Package” of the Department’s “Intragovernmental Closing Package vs. 4th

                                                              6                                               (Continued)
                                                                                                 Exhibit A
                              U.S. DEPARTMENT OF THE TREASURY
                                      Agreed-Upon Procedures for
                                Intragovernmental Activity and Balances



Quarter Submission Comparative Data Report for FY 2005 (Revised)” by reciprocal category, groups
multiple Closing Package financial statement line items (such as accounts receivable, accounts payable,
and other liabilities) into single categories.

We communicated the difference noted above to the Department and requested an explanation and
supporting documentation for the difference. We received the following explanation and supporting
document from the Department.

1. The difference relates to the Intragovernmental Closing Package vs. 4th Quarter Comparative Data
   Report including line items not presented in the RSI. The difference relates to Standard General
   Ledger Accounts (SGL) 5790 - Other Financing Sources, SGL 5990 - Collections for Others, SGL
   5991 – Accrued Collections for Others (for example IRS Custodial Collections) and SGL 7501 - Mint
   Distribution of Dividend Income which are not included in the RSI. We also inspected the reconciling
   schedule prepared by the Department.

No additional procedures were performed with respect to management’s explanations as to the reasons for
the differences.

B. We were unable to compare trading partner activity/balances from the intragovernmental RSI
   schedules in the Department’s audited consolidated financial statements to the Intragovernmental
   Closing Package Material Differences/Status of Disposition Certification Report (Section II of the CFO
   Representations) because intragovernmental activity/balances reported in RSI schedules is not
   classified by reciprocal category/line item and the Intragovernmental Closing Package Material
   Differences/Status of Disposition Certification Report does not include all reciprocal categories for
   agreement to the RSI schedules.

Procedure 4

Obtain the Treasury Financial Management Service’s (FMS’) Intragovernmental Comparative Closing
Package Explanation of Differences Report (FMS’ Comparative Report) for intragovernmental
activity/balances. Compare the differences between the agency and its trading partners by reciprocal
category/line-item from FMS’ Comparative Report to explanations from the agency’s supporting
documentation. For items where agency reporting differences exist, compare the explanations to the
supporting documentation. Identify any inconsistencies in amounts or explanations between FMS’
Comparative Report and agency supporting documentation. In the event of nonreporting by trading
partners, as indicated in the footer section of FMS’ Comparative Report, identify that the difference is due
to a nonreporting partner and do not proceed further with the review of the differences.




                                                     7                                         (Continued)
                                                                                                 Exhibit A
                              U.S. DEPARTMENT OF THE TREASURY
                                      Agreed-Upon Procedures for
                                Intragovernmental Activity and Balances



Finding 4

A. We obtained the “FMS’ Comparative Report” for intragovernmental activity/balances. We requested
   explanations and obtained supporting documentation from the Department for the reported differences
   on the FMS’ Comparative Report, presented below:

                                                   Table 4

                          Reporting    Trading
                            Agency     Partner
 Reciprocal Category        Amount     Amount      Difference      Adjustment    Unreconciled   Explanation
                          (000,000s) (000,000s)    (000,000s)       (000,000s)    (000,000s)
 Partner 12-Department of Agriculture
 RC 05-Borrowings         $     5,078 $    4,586   $        492    $        -    $       492        1
 Interest
 Revenue/Expense
 Partner 12-Department of Agriculture
 RC 24-Buy-Sell           $       391 $        2   $        359    $        -    $       359        1
 Revenue/Expense
 Partner 15-Department of Justice
 RC 01-
 Investments/Debt         $     1,039 $    2,141   $       1,102   $        -    $      1,102       1
 Partner 16R-Pension Benefit Guaranty
 Corporation
 RC 01-
 Investments/Debt         $ 16,464 $ 6,158         $        306    $        -    $       306         1
 Partner 16R-Pension Benefit Guaranty
 Corporation
 RC 03-Investment         $     1,992 $ 3,895      $       1,903   $        -    $      1,903       1
 Interest
 Expense/Revenue –
 Exchange
 Partner 24-Office of Personnel Management
 RC 22-Buy-Sell          $          - $      249   $        249    $        -    $       249        1
 Related
 Receivable/Payable
 Partner 27-Federal Communications Commission
 RC 01-
 Investments/Debt         $     3,905 $ 4,140      $        235    $     (235)   $         -        3
 Partner 27-Federal Communications Commission
 RC 03-Investment         $       148 $      194   $         46    $     (102)   $       (57)       4
 Interest
 Expense/Revenue –
 Exchange
 Partner 27-Federal Communications Commission
 RC 05-Borrowings         $       371 $      269   $        102    $     (102)   $          -       2
 Interest
 Revenue/Expense


                                                       8                                        (Continued)
                                                                                                     Exhibit A
                              U.S. DEPARTMENT OF THE TREASURY
                                      Agreed-Upon Procedures for
                                Intragovernmental Activity and Balances



                         Reporting      Trading
                           Agency       Partner
Reciprocal Category       Amount        Amount      Difference      Adjustment       Unreconciled   Explanation
                         (000,000s) (000,000s)      (000,000s)       (000,000s)       (000,000s)
Partner 28-Social Security Administration
RC 24-Buy-Sell           $        99    $    677    $        578    $     (578)      $          -       2
Revenue/Expense
Partner 33R-Smithsonian Institution
RC 17-Loans              $        20 $          -   $          20   $      (20)      $          -       2
Receivable/Payable
Partner 36-Department of Veterans Affairs
RC 01-
Investments/Debt        $ 13,083 $ 15,277           $       2,194   $   (2,194)      $          -       2
Partner 36-Department of Veterans Affairs
RC 17-Loans             $      2,193 $          -   $       2,193   $   (2,194)      $        (1)       2
Receivable/Payable
Partner 36-Department of Veterans Affairs
RC 18-Transfers          $         - $ (1,371)      $       1,371   $            -   $      1,371       4
In/Out without
Reimbursement
Partner 47-General Services Administration
RC 22-Buy-Sell          $        153 $       276    $        123    $            -   $        123       1
Related
Receivable/Payable
Partner 50-Securities and Exchange Commission
RC 01-
Investments/Debt        $          - $ 1,768        $       1,768   $        -       $      1,768       4
Partner 51-Federal Deposit Insurance
Corporation
RC 01-
Investments/Debt        $ 49,978 $ 50,619           $        641    $        -       $        641       1
Partner 51-Federal Deposit Insurance
Corporation
RC 19-Appropriation $              -    $    424    $        424    $     (424)      $          -       2
Transfers In/Out
Partner 60-Railroad Retirement Board
RC 01-
Investments/Debt        $      2,091    $ 1,262     $        828    $            -   $        828       1
Partner 72-Agency for International Development
RC 24-Buy-Sell          $        251 $        32    $        218    $        -       $        218       1
Revenue/Expense
Partner 73-Small Business Administration
RC 18-Transfers         $          - $       663    $        663    $     (663)      $          -       2
in/Out without
Reimbursement
Partner 75-Department of Health and Human
Services
RC 19-Appropriation $              - $       482        $482        $     (482)      $          -        2


                                                        9                                           (Continued)
                                                                                                  Exhibit A
                              U.S. DEPARTMENT OF THE TREASURY
                                      Agreed-Upon Procedures for
                                Intragovernmental Activity and Balances



                        Reporting     Trading
                         Agency       Partner
 Reciprocal Category     Amount       Amount       Difference       Adjustment    Unreconciled   Explanation
                        (000,000s)   (000,000s)    (000,000s)        (000,000s)    (000,000s)
 Transfers In/Out
 Partner 75-Department of Health and Human
 Services
 RC 24-Buy-Sell         $       111 $       436    $         325    $     (143)   $       182         2
 Revenue/Expense
 Partner 78R-Farm Credit System Insurance Corp
 RC 01-
 Investments/Debt       $     1,990 $ 1,971        $          18    $         -   $        18        1
 Partner 78R-Farm Credit System Insurance Corp
 RC 03-Investment       $        84 $        83    $          1     $         -   $         1        1
 Interest
 Expense/Revenue –
 Exchange
 Partner 86-Department of Housing and Urban
 Development
 RC 24-Buy-Sell         $        11 $          -   $          11    $      (11)   $          -       3
 Revenue/Expense
 Partner 89-Department of Energy
 RC 01-
 Investments/Debt       $ 23,738 $ 22,197          $        1,541   $         -   $      1,541       1
 Partner 89-Department of Energy
 RC 03-Investment       $     1,592 $ 1,056        $         536    $         -   $        536       1
 Interest
 Expense/Revenue –
 Exchange

We received the following explanations and supporting documentation from the Department:

1. The differences resulted because of a difference in accounting treatment between the Department and
   related trading partners. We inspected email documentation sent by the Department to the related
   trading partners indicating the Department’s accounting treatment.

2. The differences resulted because of accounting errors identified related to the transactions with the
   various trading partners. We inspected email documentation from the Department to the various
   trading partners describing the accounting errors.

3. The differences resulted because of timing differences related to when transactions were recorded by
   the Department and by its trading partner. We inspected email documentation from the Department to
   the various trading partners describing the timing differences.




                                                       10                                        (Continued)
                                                                                               Exhibit A
                             U.S. DEPARTMENT OF THE TREASURY
                                     Agreed-Upon Procedures for
                               Intragovernmental Activity and Balances



4. The differences resulted because of misclassifications by the respective trading partner. We inspected
   email documentation from the Department to the various trading partners describing the
   misclassifications.

We identified no inconsistencies in amounts or explanations between FMS Comparative Report and agency
supporting documentation.

No additional procedures were performed with respect to management’s explanations as to the reasons for
the differences.

Procedure 5

Identify and include copies of internal control findings related to intragovernmental activities from the
consolidated financial statement audit, including items cited in the management letter. Also, identify and
report auditor-proposed intragovernmental adjustments that were waived by the agency.

Finding 5

We did not identify any internal control findings related to the Department’s accounting for
intragovernmental activities from the fiscal year 2005 consolidated financial statement audit.

We identified and reported auditor-proposed intragovernmental account adjustments that were waived by
the Department. This is presented as Exhibit B to this report.




                                                   11
                                                                                                                                                                                                                 Exhibit B
                                                                   AUDIT OF THE CONSOLIDATED FINANCIAL STATEMENTS
                                                      SUMMARY OF UNADJUSTED AUDIT DIFFERENCES - Intragovernmental Account Adjustments Only
                                                                                        FY 2005

                                                                                                                           Adjustments on financial statement captions (Debit/(Credit))
                                                                                                                    Statement of Net Cost                                   Balance Sheet                     Disposition
                                                                                                            Unadjusted audit differences arising in
#      W/P Ref       Bureau                                Description                               Current Period     Prior Period            Total         Equity           Assets       Liabilities

1   L-18-13 pg. 10    BPD        Held by the Public - Restitution of Foregone Interest - FY 2005        140,692,175                           140,692,175                                                     Passed
                                 Intragovernmental Debt Holdings - Restitution of Foregone
                                 Interest - FY 2005                                                           852,740                             852,740
                                 Imputed Financing Source - FY 2005                                                                                         (141,544,915)

                                 To record forgone interest during the fiscal year 2005 debt
                                 issuance suspension period that, as required by statute, was
                                 restored by Treasury through the restitution of foregone interest
                                 appropriation.




2   L-18-13 pg. 1     BPD        Public Debt                                                                                                                                                (343,411,000) Passed
                                 Inttragovernmental Debt                                                                                                                                     343,411,000


                                 Reclassifying the Treasury's deposit funds from
                                 intragovernmental debt holdings to Debt Held by the Public as
                                 of 9/30/04




3   L-18-13 pg. 1     BPD        Public Debt                                                                                                                                                (336,502,000) Passed
                                 Intragovernmental Debt                                                                                                                                      336,502,000


                                 Reclassifying the Treasury's deposit funds from
                                 intragovernmental debt holdings to Debt Held by the Public as
                                 of 9/30/05




                              Total Adjustments Not Recorded                                            141,544,915                 -         141,544,915   (141,544,915)               -                 -




                                                                                                         12
